No._____

________________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_____________________
DONALD MITCHELL TEDFORD,
Petitioner,
vs.
COMMONWEALTH OF PENNSYLVANIA,
Respondent.

_____________________
On Petition for Writ of Certiorari to the
Supreme Court of Pennsylvania

_____________________
PETITION FOR WRIT OF CERTIORARI

_____________________
The Petitioner, Donald Mitchell Tedford, by counsel, Adam, B. Cogan,
Esquire, respectfully petitions for a writ of certiorari to review the judgment
of the Supreme Court of Pennsylvania.

BRUCE A. ANTKOWIAK
SAINT VINCENT COLLEGE
300 FRASER PURCHASE ROAD
LATROBE, PA 15650
(724)805-2940

ADAM B. COGAN
Counsel of Record
218 WEST MAIN STREET
SUITE A
LIGONIER, PA 15658
(724)995-8579

ATTORNEYS FOR THE PETITIONER

________________________________________________

QUESTIONS PRESENTED
The question presented in this case is:
Whether the Post-Conviction Relief Act procedures of Pennsylvania law were
applied to Petitioner in violation of his Fifth and Fourteenth Amendment rights to
Due Process of Law when he was denied the opportunity to seek merits
consideration of his claim that hundreds of pages of discoverable information were
wrongly withheld from him solely on the basis of the per se ineffectiveness of his
prior counsel?

i

LIST OF PARTIES
Petitioner, Donald Mitchell Tedford, was the defendant in the trial court and
the appellant in the Supreme Court of Pennsylvania.

Respondent, the

Commonwealth of Pennsylvania, was the plaintiff in the trial court and the appellee
in the Supreme Court of Pennsylvania.

ii

TABLE OF CONTENTS
Section

Page

Questions presented for review

i

List of parties

ii

Table of Contents

iii

Table of Authorities

iv-vi

Petition for Writ of Certiorari

1

Opinion and Order Below

1

Statement of Jurisdiction

1

Relevant Constitutional and Statutory Provisions

1-2

Statement of the Case

2-11

Reasons for Granting the Writ
THE PENNSYLVANIA SUPREME COURT’S APPLICATION
OF PENNSYLVANIA’S POST-CONVICTION PROCEDURES
VIOLATED PETITIONER’S RIGHTS TO DUE PROCESS
UNDER THE FIFTH AND FOURTEENTH AMENDMENTS
BY ARBITRARILY ENFORCING A JURISDICTIONAL TIME
BAR CREATED SOLELY BY HIS PRIOR COUNSEL’S
INEFFECTIVENESS WHILE DENYING THE PETITIONER
THE OPPORTUNITY TO CHALLENGE THAT
INEFFECTIVENESS IN ANY WAY.
Conclusion

11-35

36

Appendices
Opinion of the Pennsylvania Supreme Court

iii

TABLE OF AUTHORITIES
Cases

Page

Carter v. Illinois, 309 U.S. 173 (1946)

20

Case v. Nebraska, 381 U.S. 336 (1965)

20

Commonwealth v. Albrecht, 720 A.2d 693 (Pa. 1998)

22

Commonwealth v. Baroni, 827 A.2d 419 (Pa. 2003)

31

Commonwealth v. Bennett, 930 A.2d 1264 (Pa. 2007)

19, 21-22, 27-28

Commonwealth v. Brown, 143 A.3d 418 (Pa. Super. 2016)

19

Commonwealth v. Brown, 943 A.2d 264 (Pa. 2008)

20, 32-33

Commonwealth v. Callahan, 103 A.3d 118 (Pa. Super. 2014)

19, 30

Commonwealth v. Haag, 809 A2d 271(Pa. 2002)

21

Commonwealth v. Holmes, 79 A.3d 562 (Pa. 2013)

25

Commonwealth v. Laird, 201 A.3d 160 (Pa. Super. 2018)

24-25, 30

Commonwealth v. Lark, 746 A.2d 585 (Pa. 2000)

30

Commonwealth v. Little, 2020 Pa. Super. 207 (August 24, 2020)

22

Commonwealth v. Morris, 771 A.2d 721 (Pa. 2001)

21, 22

Commonwealth v. Natividad, 201 A.3d 11 (Pa. 2019)

31-32

Commonwealth v. Peterkin, 722 A.2d 638 (Pa. 1998)

19

Commonwealth v. Peterson, 192 A.3d 1123 (Pa. 2018)

27-28

Commonwealth v. Rosado, 150 A.3d 425 (Pa. 2016)

27-28

Commonwealth v. Rykard, 55 A.3d 1177 (Pa. Super 2012)

23

Commonwealth v. Smith, 121 A.3d 1049 (Pa. Super. 2015)

20, 22-23

iv

TABLE OF AUTHORITIES
Cases

Page

Commonwealth v. Tedford, 567 A.2d 610 (Pa. 1989)

7

Commonwealth v. Tedford, 781 A.2d 1167 (Pa. 2001)

8

Commonwealth v. Tedford, 228 A3d 891 (Pa. 2020)

1, 28

Commonwealth v. Tinsley, 200 A.3d 104 (Pa. Super 2018)

19

Commonwealth v. Turner, 88 A.3d 754 (Pa. 2013)

19-20

Davis v. Department of Corrections, 341 F.3d 1310 (11th Cir. 2003)

22

Evitts v. Lucey, 469 US 387 (1985)

21-22, 34

In re: K.A.T., 69 A.3d 691 (Pa. Super. 2013)

19

Kimmelman v. Morrison, 477 U.S. 365 (1986)

21

Logan v. Zimmerman Brush Company, 455 U.S. 422 (1982)

21

McQuiggin v. Perkins, 569 U.S. 338 (2013)

19

Pennsylvania v. Finley, 581 US 551 (1987)

20

Roe v. Flores-Ortega, 528 U.S. 470 (2000)

27

Tedford v. Beard, et. al., Civil No.: 09-409 (W.D.Pa. 2010)

8, 10

United States v. Bethlehem Steel, 315 U.S. 289 (1942)

29

Zipes v. TWA, 455 U.S. 385 (1982)

19

Constitutional Provisions, Statutes and Rules
Fifth Amendment to the United States Constitution

passim

Fourteenth Amendment, Section 1,
to the United States Constitution

passim

Title 42, Pa.C.S. §9541 et seq.

7

v

Constitutional Provisions, Statutes and Rules
Title 42, Pa.C.S. § 9542

Page
19

Tile 42, Pa.C.S. §9545

18, 20, 23, 26

Title 65, P.S. §§ 67.101 et seq.

8

Title 28, U.S.C. §1257(a)

1

Title 28, U.S.C. §2254

8

Rule 305 of the Pennsylvania Rules of Criminal Procedure

14

Rule 907 of the Pennsylvania Rules of Criminal Procedure

23-24

Rule 909 of the Pennsylvania Rules of Criminal Procedure

23-24

Rule 10(c) of the Rules of the United States Supreme Court

16

Law Review Articles and Other Publications
Colby Duncan, Justifying Justice: Six Factors of Wrongful
Convictions and Their Solutions, Research Journal of
Justice Studies and Forensic Science, Volume 7 Article 6 (2019)

16

Lee Kovarsky, Structural Change in State Post-Conviction Review,
93 Notre Dame L. Rev. 443, 445 (2018).

20

Madeline Hartsell Lamb, Pretrial Discovery and InspectionNew Criminal Rules For Pennsylvania,
23 Villanova Law Review 308 (1978)

14

Thomas Place, The Claim Is Cognizable But The Petition
Is Untimely, Temple Political & Civil Rights Law Review 49 (2000)

18

Report of the United States Department of Justice,
the Federal Bureau of Investigation, the Innocence Project
and the National Association of Criminal Defense Lawyers
(April 20, 2015)

5

vi

PETITION FOR A WRIT OF CERTIORARI
Donald Mitchell Tedford respectfully petitions this Court for a writ of
certiorari to review the Supreme Court of Pennsylvania’s judgment denying him
post-conviction relief in this death penalty case.
OPINIONS BELOW
The Opinion and Order of the Supreme Court of Pennsylvania affirming the
trial court’s denial of post-conviction relief is reported at Commonwealth v. Tedford,
228 A3d 891, 905 (Pa. 2020) and attached hereto as Appendix A.
JURISDICTION
The Opinion and Order of the Supreme Court of Pennsylvania affirming the
denial of post-conviction relief were entered on April 22, 2020. On March 19, 2020,
this Court extended the time to file a petition for a writ of certiorari due on or after
that date to 150 days from the date of the judgment in question. The jurisdiction of
this Honorable Court is invoked pursuant to Title 28, United States Code, §1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The issues raised herein concern the Fifth and Fourteenth Amendment,
Section 1, to the United States Constitution.
The Fifth Amendment to the United States Constitution provides:
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a grand jury, except in
cases arising in the land or naval forces, or in the militia, when in
actual service in time of war or public danger; nor shall any person be
subject for the same offense to be twice put in jeopardy of life or limb;
nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property, without due
1

process of law; nor shall private property be taken for public use,
without just compensation.
The Fourteenth Amendment, Section 1, to the United States Constitution
provides:
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the state
wherein they reside. No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the United
States; nor shall any state deprive any person of life, liberty, or
property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
STATEMENT OF THE CASE
The most focused summary of this matter begins with the murder of
Jeannine Revak in western Pennsylvania in 1986.
The police investigation focused entirely upon Donald Tedford, a man who
was on work release from an assault conviction and employed as a manager in a
home furnishings store in Butler County, Pennsylvania called the Finishing Touch.
Revak had applied for a job there and went missing on a day where she
mysteriously called off from work, claiming an illness she did not have and not
telling her husband that she was going to meet with Tedford at the Finishing
Touch. Her husband never reported her missing at all the rest of that day or that
night and only called the police the next day. When he was called to identify her
body, police on the scene reported that Jeanine Revak’s husband made an
incriminating statement that could readily be construed as a confession to her
murder (“I’m sorry, I couldn’t help it” or “I’m sorry, I didn’t mean it”).

2

Jeanine Revak’s body had been found by hunters in a rural area of
Washington County, Pennsylvania many miles away from the Finishing Touch.
From the outset, Tedford emphatically proclaimed his innocence. He admitted that
he and Revak had an affair, including sex that day at the store, but testified that
she left unharmed thereafter.
The lack of physical evidence linking Tedford to Jeanine Revak’s murder
should have led to Tedford’s acquittal.
When Jeanine Revak’ body was discovered on January 11, 1986, her clothing
was drenched with blood from a severe blow to her head that caused a laceration to
her scalp which resulted in profuse bleeding. Around her neck was a deep
strangulation wound that appeared to have been caused by a very thin garrote. In
order for Tedford to have been guilty, he would have to have murdered Revak at the
Finishing Touch in the middle of his work shift and then disposed of her body in the
distant Washington County wooded area much later that evening.
But the medium sized Finishing Touch had wall-to-wall carpeting and was
literally crammed with carpets, lampshades, drapes and a variety of other textile
materials that were especially susceptible to soaking up any blood the extreme blow
to Revak’s head produced. If Tedford murdered Revak in the store by violently
striking her head with such force that a huge blood loss immediately ensued and
followed it up with a garrote that dug deep into her neck, the Finishing Touch
should have been strewn with traces of Revak’s blood. Yet despite prompt and
thorough forensic examination by the Pennsylvania State Police (hereinafter PSP),

3

no speck of blood whatsoever was found at the Finishing Touch to support the
theory that Revak was brutally murdered there.
Nor was any trace of blood or other evidence found in the tight hatchback car
the Commonwealth alleged Tedford used to transport Revak’s bloody body on the 50
plus mile trip from Butler County to the backwoods of Washington County where
her body was found.
And at no point did the Commonwealth produce a murder weapon, a
fingerprint or any shed of physical evidence to tie Tedford to the murder or
establish the Finishing Touch was the site of Ms. Revak’s demise.
Nevertheless, Tedford was put on trial in Butler County Pennsylvania and
the Commonwealth sought the death penalty.
His lawyer did absolutely nothing to prepare for the trial. The lawyer did not
file a discovery motion or press the Commonwealth for any discovery. Then and
now the rules of discovery in the Commonwealth of Pennsylvania were much like
the rules in every jurisdiction requiring the Commonwealth to turn over the
statements of the defendant, statements of witnesses, physical evidence, the results
of scientific tests, identification procedures and any exculpatory evidence pursuant
to the Brady Rule.

But Tedford’s defense lawyer accepted at face value the

Commonwealth’s assurance that they had given him everything that he was
entitled to receive by way of discovery. He hired no private investigator and did no
independent investigation of the matter on his own.

4

The only meaningful forensic evidence the Commonwealth presented at trial
came from a PSP criminalist trained in microscopic hair and fiber analysis by the
FBI.
The criminalist testified that he found a pubic hair on Revak’s underpants
that did not match her or her husband but was consistent with Tedford’s based
upon his “microscopic analysis.” The criminalist additionally testified that he
compared vegetable fibers found on Revak’s clothing with fibers from twine found at
the Finishing Touch as well as carpet backing fibers from the store and concluded
that they were consistent. The criminalist elaborated that the vegetable fibers on
Revak’s clothing absolutely could not have come from where her body was found or
from her residence. In addition, the criminalist testified that he removed fibers
from the decedent’s blouse and Tedford’s ski sweater and that the fibers had the
same “microscopic characteristics” “optical properties” and additional similarities.
Unbeknownst to Tedford at the time of trial, however, the criminalist’s
testimony was junk science.
Indeed, it was not until April 20, 2015, that the FBI announced the results of
a review of cases in which FBI trained analysts, like the PSP criminalist at
Tedford’s trial, testified for the prosecution. In their report, the FBI concluded that
examiners' testimony in at least 90 percent of trial transcripts the Bureau analyzed
as part of its review contained erroneous statements and that 26 of 28 FBI
agent/analysts either provided testimony with erroneous statements or submitted
laboratory reports with erroneous statements.

5

Report of the United States

Department of Justice, the Federal Bureau of Investigation, the Innocence Project
and the National Association of Criminal Defense Lawyers (April 20, 2015).
The PSP criminalist’s testimony was, however, taken at face value.
The thrust of the Commonwealth’s case at trial hinged on the testimony of
two jailhouse informants who testified that Tedford confessed to her rape and
murder.
The more extensive testimony of the informants was given by Michael Ferry.
Ferry alleged that Tedford made incriminating statements to him (including a
statement about Tedford having “hot nuts” upon which the Commonwealth’s theory
of the case) while incarcerated at the Butler County Jail awaiting trial.
Since the trial, however, Ferry recanted his trial testimony and stated firmly
that he testified falsely against Tedford as a result of promises of leniency that were
never made known to Tedford’s attorney.
Indeed, Ferry only came forward with his story after the police went on
television asking for help in explaining why Revak’s vehicle was located where it was
found and Ferry admitted to making up Tedford’s confession to benefit himself by
filling in an otherwise impossible gap in the timeline of the case.
Furthermore, at least two witnesses were available to testify that Ferry
concocted his story to falsely implicate Tedford in order to secure leniency from the
Commonwealth.
Neither of these witnesses, however, was called at trial.

6

The other Commonwealth informant was Christopher White, a lifelong petty
thief who blandly testified that Tedford confessed to him that he raped and
murdered Jeanine Revak without any corroborating details whatsoever.
Since Tedford’s conviction, however, information surfaced indicating that
White suffered substantial mental health problems which predated his trial
testimony. Indeed, White revealed to Tedford’s private investigator that he suffered
serious mental health problems throughout his life and he was housed in an
institution dedicated to treat inmates with severe mental health issues at the time
of the private investigator’s interview.
None of this was disclosed by the Commonwealth and White’s testimony went
virtually un-impeached at trial.
Not surprisingly, Tedford was found guilty of Murder in the First Degree and
Rape. Tedford’s steadfast belief in his own innocence compelled him to direct his
lawyers not to put on any evidence in mitigation, although such evidence most
certainly existed.

Tedford refused to beg for his life from a system which had

wrongfully convicted him. The jury recommended and the judge imposed the death
penalty.
After his direct appeals failed, Commonwealth v. Tedford, 567 A.2d 610 (Pa.
1989), Tedford secured new counsel who returned to the courts of Pennsylvania and
filed a petition under the Post-Conviction Relief Act, Title42, Pa.C.S. §9541 et seq.
That act is discussed in more detail later.

Conjoined with that petition was a

request for discovery material but that request was rejected by the trial court and

7

affirmed by the Supreme Court of Pennsylvania on two grounds. First, the nature
of the request was a boilerplate filing with no specificity and was rejected under the
limited discovery rules of Pennsylvania for PCRA actions for lack of specificity. But
more importantly, the request was denied because the Commonwealth continued to
represent to the court that there was no further information that could be
discovered.

Tedford lost his first PCRA application after a perfunctory hearing

granted him on a question of conflict of interest, and the denial was affirmed by the
Supreme Court of Pennsylvania. Commonwealth v. Tedford, 781 A.2d 1167 (Pa.
2001).
With the same lawyers, Tedford moved for Habeas Corpus relief pursuant to
Title 28, U.S.C. §2254 in the United States District Court for the Western District of
Pennsylvania. Tedford v. Beard, et. al., Civil No.: 09-409 (W.D.Pa. 2010).
Once again, he requested discovery and once again the Commonwealth
(represented by the Attorney General of Pennsylvania since Tedford’s first PCRA
was pending), assured the court on the record that there was no further information
to be discovered. The discovery request was denied.
Essentially, for 25 years, the Commonwealth assured Tedford and the Court
that all of the information he was entitled to receive had been tendered and that no
further discovery existed which could have been disclosed.
Putting it bluntly, these representations were false.
In the midst of his federal habeas corpus litigation, Tedford’s lawyers filed a
Right to Know Law request under the law of Pennsylvania, Title 65, P.S. §§ 67.101

8

et seq., and while that request was formally denied, they received a letter dated
March 4, 2011 from the Pennsylvania State Police which acknowledged that 800
pages of information gathered during the investigation was in their possession.
By the most generous rendering, Tedford received only 40 to 45% of that
material prior to his trial.
What Tedford knows about these pages is the categories in which the state
police had them organized. Those categories bare names such as “crime report”,
“incident report”, “interviews”, “investigative action”, “property recovered”, “medical
information”, “suspect information”, “diagrams” “Cranberry Township Police
information”, and “psychiatric reports” amongst others.
These categories of information more than strongly suggest the presence of
Brady material within them. There are approximately 56 pages of “suspect” files,
although nothing that was revealed to Tedford prior to trial suggested that the
police had investigated any person as a suspect in this homicide other than Tedford.
Moreover, there are 31 pages in two separate files of “psychiatric records.”
From the outset of the inception of charges, however, Tedford protested his factual
innocence and he did not defend this case on the basis of any form of insanity,
diminished capacity, or any other mental infirmity defense.

As he steadfastly

asserted his innocence, he refused to offer any penalty phase evidence in mitigation.
Jailhouse informant White could well have been the subject of those reports but
nothing about White’s mental condition was disclosed to Tedford for the purpose of
impeaching White’s testimony at trial.

9

While Tedford was asking the Habeas Court to rectify this problem, the
lawyers he had at that time, without his knowledge, filed papers raising issues
regarding the mitigation of his sentence.

Tedford discharged those lawyers for

going so directly against his wishes.
His new lawyers, those currently representing him in this matter, were
appointed approximately one year after his previous lawyers had received the
March 4, 2011 letter. At that point, they attempted to get the federal court to order
discovery, but the District Court refused saying that the state court judgment on
discovery was a legal impediment to the federal courts overruling those decisions.
Tedford v. Beard, et. al., No. 09-409 DE 197 (Opinion and order dated September
29, 2014) (W.D.Pa. 2010).
The United States District Court, however, then suspended its actions and
allowed Tedford time to return to state court to try to correct the previous rulings
which had categorically denied him discovery there.
Tedford then commenced a second PCRA action in Butler County Court. He
made extraordinarily detailed discover requests based upon the categories of
information now known to exist as reflected in the March 4, 2011 letter.

The

Commonwealth could no longer deny the existence of these documents but instead
turned to the well-worn road the Commonwealth tries to lead many PCRA
applicants down, the road upon which the petition is dismissed without considering
its merits on the basis that it is untimely. The trial court ultimately agreed and
dismissed the case without a hearing and without addressing the outrageous

10

misrepresentations that the Commonwealth had previously made denying the
existence of discovery, the blatant errors of his trial counsel, and thus a huge error
committed by his first Habeas Corpus/PCRA counsel which failed to return to the
Pennsylvania courts within 60 days of the time they received the March 4, 2011
letter in an action which under the Pennsylvania PCRA statute would have
arguably given him the opportunity to assert that the second petition was timely.
The Pennsylvania Supreme Court then summarily affirmed the dismissal,
ignoring its own precedent that would have given Tedford the opportunity to have
had his petition considered on the merits. That ruling plainly forfeited his right to
consideration because of the gross ineffectiveness of his trial and PCRA counsel.
The outrageous misrepresentations by the Commonwealth attorneys regarding
discovery were similarly buried as an insignificant matter to the court.
REASONS FOR GRANTING THE WRIT
THE
PENNSYLVANIA
SUPREME
COURT’S
APPLICATION
OF
PENNSYLVANIA’S
POST-CONVICTION
PROCEDURES
VIOLATED
PETITIONER’S RIGHTS TO DUE PROCESS UNDER THE FIFTH AND
FOURTTENTH AMENDMENTS BY ARBITRARILY ENFORCING A
JURISDICTIONAL TIME BAR CREATED SOLELY BY HIS PRIOR
COUNSEL’S INEFFECTIVENESS WHILE DENYING THE PETITIONER
THE OPPORTUNITY TO CHALLENGE THAT INEFFECTIVENESS IN ANY
WAY.
Tedford has been severely prejudiced by the application of the Pennsylvania
Post-Conviction Relief system which, in this case and others, operates in the
following way in violation of his 5th and 14th Amendment Due Process rights:
1. While Pennsylvania Courts have recognized:

11

a. the obligation to provide persons convicted with a vehicle to raise
Federal Constitutional challenges to their conviction;
b. that by providing such a post-conviction relief procedure, that
procedure must conform to standards of Due Process required by
the 5th and 14th Amendments; and,
c. that by providing that counsel will be appointed for individuals
accessing the post-conviction procedure, such counsel must provide
Constitutionally effective assistance;
2. in direct contradiction to these principles, Pennsylvania courts afford no
procedure for any defendant to meaningfully challenge the effectiveness of
the counsel appointed; and,
3. the Pennsylvania courts compound this unconstitutional defiance by
ratifying a system whereby the ineffectiveness of counsel may forfeit for
the defendant the right to raise substantive Constitutional claims through
counsel’s failure to meet strictly enforced timeliness requirements for
filing, leaving the defendant without a means to obtain merits
consideration of his claims and without the ability to assert his counsel’s
failure to act in a timely manner.
The critical flaws in this system are not merely alleged by Tedford. As
demonstrated infra., they are flaws the Pennsylvania Court system has admitted
exist but which It refuses to remedy.
This systemic failure has worked a very specific prejudice for Tedford. It has
kept from him over half of the 800 pages of discovery materials he should have had
before trial which would assist in him proving that he is innocent of the crime
charged.

12

From the moment Don Tedford was accused of the rape and bloody murder of
Jeanine Revak he has adamantly proclaimed his innocence. He underscored that
proclamation by categorically refusing to allow his lawyers to ever put forth
evidence to mitigate his punishment despite the fact that such evidence was readily
available.

His reasoning was simple and profound:

As I did not commit this

horrible crime, I will not beg for my life from those who seek to wrongly take it from
me.
What

Tedford

rightfully

expected

was

that

the

Commonwealth

of

Pennsylvania would fulfill the essential promise of Due Process It and every other
jurisdiction must make to a criminal defendant pursuant to the Fifth and
Fourteenth Amendments to give them an opportunity to fully and fairly oppose the
effort of the government to strip them of their presumption of innocence.

For

Tedford, that promise meant that he would have an honest forum in which to show
that his protestations of innocence were not just the desperate cries of a man
seeking to avoid execution but represented something he believed the system was
supposedly dedicated to searching for: the truth about who did kill Jeanine Revak.
But over the decades since he was charged, convicted and now awaits
execution, it is abundantly clear that no one in the Pennsylvania Court system has
taken this promise seriously.
Most egregiously, the promise has been breached by the failure of the
Pennsylvania courts to apply Its post-conviction collateral relief rules to give
Tedford merits consideration of his claim that he was systematically denied access

13

to a vast amount of discoverable information (which is still hidden from him) due to
the ineffectiveness of his prior counsel and the willful misrepresentations of
Commonwealth agents that no such information existed when documentary
evidence now demonstrates that the majority of the 800 pages of investigative
reports on this case have never been disclosed. The window into the truth of this
case has been slammed shut.

Unless that window is to be opened and these

hundreds of pages of information wrongfully withheld provided to him now, the
public that will witness his execution will never know that the right man has died
for Revak’s death and that the true killer did not escape justice.
Were this a theatrical performance, calling this case a “search for the truth”
would make it a comic farce except for the fact that in the last scene an innocent
man is executed. That truth remains buried under layers of Constitutional errors
the Pennsylvania Courts callously refuse to uncover.
First, Tedford’s trial counsel never sought discovery from the Commonwealth
prior to trial. At that time, discovery in Pennsylvania was governed by Rule 305 of
the Rules of Criminal Procedure, a Rule adopted in 1977 to replace an old system in
which all discovery had to be sought by petition to the Court. See, Madeline
Hartsell Lamb, Pretrial Discovery and Inspection-New Criminal Rules For
Pennsylvania, 23 Villanova Law Review 308 (1978). The new Rule required the
parties to make a good faith effort to resolve discovery but mandated that the
Commonwealth

turn

over:

Brady

material,

the

defendant’s

statements,

identification procedures, scientific tests conducted, tangible objects gathered, and

14

wiretap evidence. Id. at 314-317. The Rule also required that to obtain the names
and statements of eyewitnesses and any other evidence the defendant could
“establish that its disclosure would be in the interest of justice” Id. at 318-319,
however, the defendant had to seek an order of court compelling such disclosure.
Counsel filed nothing. He accepted the Commonwealth’s assurance that he had
everything he needed.
Second, Tedford’s first post-conviction counsel failed to properly seek
discovery by using a boilerplate motion but, of course, the ultimate dismissal of that
request was certainly also the result of the continued assurance by Commonwealth
attorneys that nothing else existed which could be discovered. But a March 4, 2011,
letter from the Pennsylvania State Police in response to a state Right to Know Law
request admitted that more than half of the 800 pages of investigatory reports
gathered on the case had not be disclosed.

The representations made by the

Commonwealth over the previous 25 years that no additional material was
available were utterly false. At that moment, counsel needed to return to the
Pennsylvania Courts within 60 days with a new Post-Conviction Relief Act (PCRA)
petition to comport with timeliness rules then applicable. They failed to do so.
And when Tedford discharged them months later for trying to argue
mitigation of sentence against his expressed orders, new counsel tried to get the
federal habeas corpus court to order discovery, only to have that court rule that the
failure to present the proper discovery request in state court deprived the District
Court of that authority.

15

But it is in the third layer of error that the true mockery of Tedford’s Fifth
and Fourteenth Amendment rights to Due Process occurred. For when the federal
court stayed its proceedings to allow Tedford to return to state court to correct the
errors regarding discovery caused by his counsels’ ineffectiveness and the
Commonwealth’s deceptive representations, Pennsylvania’s draconian application
of its own post-conviction rules deprived Tedford of merits consideration on the
basis that his attorney’s ineffectiveness made his current application untimely.
Those rules, as applied, violate Tedford’s federal Due Process rights and,
pursuant to Rule 10(c) of the Rules of this Court, Tedford respectfully asserts that
the Pennsylvania Supreme Court [PASC] has decided an important question of
federal law that has been decided in a way that conflicts with the relevant decisions
of this Court. Thus, the grant of certiorari review here is of utmost importance.
The importance of revealing these hundreds of pages of discoverable
information cannot be understated.

The Commonwealth’s case was razor thin.

There were no eyewitnesses. No physical evidence established that a bloody murder
occurred in a store filled with fabrics or that a bloodied body was transported many
miles in a car trunk; forensic analysis of both areas yielded nothing. What the
Commonwealth relied upon to convict Tedford would today easily constitute the
majority of features typical of constituting a wrongful conviction. See, Colby
Duncan, Justifying Justice: Six Factors of Wrongful Convictions and Their
Solutions, Research Journal of Justice Studies and Forensic Science, Volume 7

16

Article 6 (2019). Of bad forensics,1 the use of jailhouse informants,2 government
misconduct,3 ineffective trial counsel,4 faulty eyewitness identification, and a false
confession by the defendant to police, Tedford’s case contains the first four.
To assume that nothing in the 800 pages would not have illuminated the
truth is to be willfully blind to reality.
But while any lay person would see the justice in allowing a death row
inmate to see the investigative reports he should have had before trial at some point
before he dies by lethal injection, the Pennsylvania Court, through the arbitrarily,
capricious and callous application of its post-conviction relief process, has turned a
blind eye and deaf ear to that common sense mandate.
The vehicle used by the Courts to achieve this unconstitutional application is
Tile 42, Pa.C.S. §9545, the timeliness provision of the PCRA which is not just
viewed as a statute of limitations subject to normal tolling processes but as a
jurisdictional bar which may never be breached.
Any post-conviction pleading (initial or subsequent) must be filed within one
year of the date the judgment becomes final, being the date on which direct appeal
would have to have been filed before this Honorable Court. See, §9545. If filed after
that deadline, a petitioner must rely upon one of three narrow exceptions: that
government officials interfered with his filing, that “the facts upon which the claim
The fiber analysis was offered by a Commonwealth “expert” who trained under
FBI techniques the Bureau now publicly repudiates.
2 One of whom thereafter recanted and the other of whom was likely insane then as
he is now.
3 Twenty-five years of denial that other discovery existed.
4 Detailed through this pleading.
1

17

is predicated were unknown to the petitioner and could not have been ascertained
the exercise of due diligence”, or that he asserts a new right to be applied
retroactively per this Court or Pennsylvania’s Supreme Court. § 9545(b)(1)(i-iii). If
one of these applies, at the time relevant to Tedford’s case, the petitioner had only
60 days to reinitiate a petition.5 If the 61st day comes without a filing, the Court
has no jurisdiction to hear it regardless of whether an atrocious miscarriage of
justice occurred.
While scholars disagree that the section is jurisdictional,6 it is unassailable
dogma in Pennsylvania jurisprudence. It has been held Constitutional as according
with due process principles. Commonwealth v. Peterkin, 722 A.2d 638, 643 (Pa.
1998). The Pennsylvania Supreme Court espouses this doctrine while, at the same
time, recognizing that the PCRA statute is the exclusive means by which any postconviction remedy can be obtained. See, Title 42, Pa.C.S. § 9542; Commonwealth v.
Peterkin, Supra. at 643. And while the Court has acknowledged this section
“envisions that persons convicted of a crime be permitted one review of their
collateral claims” Commonwealth v. Bennett, 930 A.2d 1264, 1267 (Pa. 2007), it has
categorically denied its protections in many contexts.7

The Pennsylvania legislature recently expanded that to one year.
See, Thomas Place, The Claim Is Cognizable But The Petition Is Untimely, Temple
Political & Civil Rights Law Review 49 (2000), arguing that there is no support in
this statute for the jurisdictional limit and that whenever a time for filing provision
is made applicable to a lay person, it is particularly egregious to find that such a
time limit is jurisdictional. Id. at 19-22, citing Zipes v. TWA, 455 U.S. 385 (1982).
7 This statutory scheme categorically excludes certain types of cases from review
regardless of how ineffective the attorney was who represented the defendant to its
conclusion. It does not apply to civil commitment proceedings or to any case
5
6

18

Tedford does not attack the PCRA system on its face. Rather, he undertakes
the suggestion the Pennsylvania Supreme Court itself has made that §9545 may be
attacked as unconstitutional as applied. See, Commonwealth v. Brown, 943 A.2d
264, note 4 (Pa. 2008). Recognizing that the statute “envisions” that he will get one
review of his collateral claims, he respectfully insists that such review be one that
accords with the principles of Due Process which specifically pertain to state postconviction review processes as this Court has enunciated them.
First, a state must provide a mechanism for defendants to assert that their
conviction violated federal Constitutional principles. Case v. Nebraska, 381 U.S.
336 (1965); Carter v. Illinois, 309 U.S. 173, 175 (1946). Indeed “State PCRA is …. a
primary device by which the federal Constitution is enforced.” Lee Kovarsky,
Structural Change in State Post-Conviction Review, 93 Notre Dame L. Rev. 443, 445

involving a juvenile adjudication. Commonwealth v. Tinsley, 200 A3d 104 (Pa.
Super 2018); In re: K.A.T., 69 A.3d 691 (Pa. Super. 2013). The jurisdictional bar
does not admit of an “actual innocence” exception as recognized in McQuiggin v.
Perkins, 569 U.S. 338 (2013), finding that “our jurisprudence” has deemed such
decisions as pertaining only to Habeas Corpus proceedings and not to PCRA
actions. Commonwealth v. Brown, 143 A.3d 418, 420 (Pa. Super. 2016). No form of
equitable tolling is permitted. Commonwealth v. Callahan, 103 A.3d 118, 122 (Pa.
Super. 2014). And where a defendant receives a short sentence such that a direct
appeal would eat up the time they were serving the sentence making them
ineligible for a PCRA application which requires that the sentence still be extant,
the solution of the Court in Commonwealth v. Turner, 88 A.3d 754 (Pa. 2013) was to
advise a defendant that if they wish to attack the ineffectiveness of their trial
lawyer, they would have to do it initially in post sentence motions and ask the trial
court to exercise its discretion to consider the matter then. Of course, as the
dissenting Justice in that case pointed out, such a procedure is practically
impossible. It would require a lay defendant to know that counsel had been
Constitutionally ineffective, fire that counsel, and get new counsel who raise
adequately the question of ineffectiveness, all within the 10-day period that rule
strictly permits. Commonwealth v. Turner, Id. at 348.
19

(2018). While the United States Constitution does not require a state to set up a
PCRA system, Pennsylvania v. Finley, 581 US 551 (1987), if the state does create
such a process, the procedures used “must comport with the demands of the Due
Process and Equal Protection Clauses of the Fourteenth Amendment.” Evitts v.
Lucey, 469 US 387, 393 (1985).
The Pennsylvania Courts have consistently recognized the paradigm that in
implementation of the PCRA statute, the rigorous standards of Due Process
pursuant to the Fifth and Fourteenth Amendments must be met. Commonwealth v.
Smith, 121 A.3d 1049, 1053 (Pa. Super. 2015) (due process requires the postconviction process be fundamentally fair); Commonwealth v. Turner, Supra. 80
A.3d, 765 to 766, citing Evitts; Commonwealth v. Bennett, Supra. at 930 A.2d 1273
(“[D]ue process requires the post-conviction process be fundamentally fair” also
citing Logan v. Zimmerman Brush Company, 455 U.S. 422, 437 (1982), that a
petitioner must be given a chance for the “presentation of claims at a meaningful
time and in meaningful manner.”) In Commonwealth v. Morris, 771 A.2d 721, n. 10
(Pa. 2001), the Court additionally noted that besides the statutory provision for
PCRA relief, the Pennsylvania Constitution gives a right to appeal from a court of
record to an appellate court, making it “insincere” for the PASC to conclude that no
right of appeal exists from the judgment of the lower court in a PCRA matter.
The second key paradigm Pennsylvania acknowledges is that Due Process
demands that the post-conviction process afforded actually offer a substantive
opportunity for a petitioner to gain relief. Critical to principle is that while a state

20

need not necessarily appoint counsel in its post-conviction process, once it does that,
the appointed counsel must give effective representation to fulfill Due Process
standards. The services of a lawyer for virtually every lay person seeking to contest
on appeal a claim with the government is necessary for the proper presentation of
any form of merits review.

Evitts v. Lucy 369 US at 393, 396; Kimmelman v.

Morrison, 477 U.S. 365, 377 (1986) (the right to counsel is the right to effective
counsel).
As Pennsylvania does afford appointed counsel to indigents like Tedford in
PCRA proceedings, the Pennsylvania courts admit that the counsel must be
effective. In Commonwealth v. Haag, 809 A.2d 271, 283 (Pa. 2002) (cited in
Commonwealth v. Smith, 121 A.3d at 1053) the PASC held that since Pennsylvania
provides a form of relief and counsel to pursue that relief, “not only does a PCRA
petitioner have the ‘right’ to counsel, but also he has the right to effective assistance
to counsel.” See also, Commonwealth v. Albrecht, 720 A.2d 693, 700 (Pa. 1998) (a
defendant

has

an

enforceable

right

to

effective

post-conviction

counsel);

Commonwealth v. Morris, Supra. 771 A.2d 721 at n.10.
The right to post-conviction review and to effective assistance of counsel with
respect to that review are thus inextricably intertwined. As the Evitts Court held
“a state may not distinguish [the right to appeal] because another right of the
appellant --- the right to effective assistance of counsel --- has been violated.” 469
U.S. at 399 to 400. Clearly, the failure of counsel to properly preserve a petitioner’s
appellate rights and capacity to be heard by a higher Court affects the overall

21

integrity of the proceeding and constitutes an act of ineffectiveness. Commonwealth
v. Little, 2020 Pa. Super. 207 (August 24, 2020) citing Davis v. Department of
Corrections, 341 F.3d 1310 (11th Cir. 2003).
But recognizing these paradigms and conscientiously enforcing them are two
very different things. The solemn and enforceable promise to individuals like
Tedford that they will get at least one full and fair opportunity to seek post
collateral relief, Commonwealth v. Bennett, Supra. at 1267, and effective counsel to
secure that opportunity has been, by rulings of the Pennsylvania appellate courts,
rendered a nullity at best and a cruel joke at worse. In Tedford’s case and others,
that opportunity has been foreclosed by the draconian interpretation given to the
timeliness provisions of §9545 and other sections of the PCRA which not only deny
petitioners the ability to challenge the effectiveness of their PCRA counsel but
which use that ineffectiveness as a justification to create a jurisdictional bar to
hearing claims of serious Constitution violations on the merits.
Three cases illustrate this point but, perhaps most troublingly, the PASC has
admitted this structural failure of its system.
Under the PCRA, once the petition has been filed and an answer of the
Commonwealth has been received, instead of holding a hearing, the trial court can
give notice to the defendant that his petition will be summarily dismissed 20 days
hence. See, Rules 907 and 909 of the Pennsylvania Rules of Criminal Procedure. At
this point, a defendant is undoubtedly represented by the attorney whose
performance may have constituted ineffectiveness and led to the issuance of the

22

dismissal warning. In response to that notice, the defendant is to file an objection
and, as the Pennsylvania courts have repeatedly held, this response is the only
chance a defendant has to raise the ineffectiveness of the attorney who continues to
represent him.

Indeed, in Commonwealth v. Rykard, 55 A.3d 1177 (Pa. Super

2012), and Commonwealth v. Smith, 121 A.3d 1049 (Pa. Super. 2015), the
Pennsylvania Courts held that the defendant must raise ineffective assistance in
the Rule 907 reply or forever waive it. Id. at 1054. The Smith Court added that the
Court has “no duty” to tell a defendant how to preserve his rights to effective
assistance of counsel. Id. The absurdity of requiring an indigent lay defendant to
assess his counsel’s performance particularly while his counsel is still performing,
and make those thoughtful objections within 20 days or, in the alternative, fire that
lawyer, find sufficient funds to retain a new one and then have this new attorney
make an effective argument about the prior attorney’s Constitutional deficiency, all
in that short period of time, is palpable.
And note that when a defendant is afforded any sort of hearing regarding his
PCRA filing, no Rule 907/909 notice issues and thus, in those cases, there is no
chance at all for him to claim his counsel was ineffective.
A Panel of the Superior Court has had the integrity to recognize the
Constitutional violation this system creates. In Commonwealth v. Laird, 201 A.3d
160 (Pa. Super. 2018), the defendant filed a second PCRA claiming that the counsel
in his first PCRA was ineffective for not raising certain critical issues.

Laird

pointed out that under Pennsylvania process, since he was granted a hearing by the

23

trial court, a Rule 907 notice never issued and he was not able to challenge his first
attorney’s effectiveness while the appeal of his first PCRA was pending. When that
appeal was over, it was now more than one year past the time for him to file a new
PCRA without invoking one of the three limited statutory exceptions. As none of
the narrow exceptions fit, Laird had no chance at all to be heard on whether his Due
Process rights to a fair hearing were denied because of an ineffective lawyer.
In footnote 1 of the Laird Opinion, the Panel plainly acknowledged that the
petitioner there was “deprived of his opportunity to challenge the effectiveness of
his PCRA counsel. Given the fact that he had a hearing, the Rule 907 notice, as the
only avenue open for such a challenge, was never presented to him.” The Panel
further acknowledged that a serial petition would most unquestionably be
considered untimely and that the ineffectiveness could not be raised in any
subsequent filing. The Court candidly concluded “[t]herefore, appellant has been
denied an opportunity to challenge PCRA counsel effectiveness, despite that he has
the right to effective representation on collateral review.

Nevertheless, we are

compelled to adhere to the aforementioned precedent and affirm the order denying
the Appellant’s present position.” Id.
Laird was not the first time a Pennsylvania Court admitted this glaring
deficiency of process. In Commonwealth v. Holmes, 79 A.3d 562 (Pa. 2013), the
PASC admitted that there is no “formal mechanism” to review the effectiveness of
PCRA counsel and that “this Court has struggled with the question of how to
enforce this ‘enforceable’ right to effective PCRA counsel within the strictures of the

24

PCRA.” Id. at 584. While admitting that the “question of whether and how to
vindicate the right to effective PCRA counsel has been discussed at length” in the
end “no definitive resolution has emerged.” Id. The hole in this critical process has
thus been seen but no effort has been made to repair it.
Due process in the context of the PCRA in Pennsylvania is thus an unfulfilled
promise of fair procedure. It is a siren’s song, luring defendants seeking one fair
hearing of their post-conviction claims to an ultimate tragic demise.
Tedford’s situation parallels Laird. In the first PCRA, a hearing was held
and Tedford then had no opportunity to allege counsel’s ineffectiveness for filing a
boilerplate discovery motion. As they continued to represent him at and after the
receipt of the March 4, 2011 letter, he had no opportunity to contest their failure to
return to the state court within the short 60-day window arguably opened. It was
only after he discharged them because of their insistence on arguing issues
regarding mitigation that he was appointed new counsel who first attempted to
obtain the necessary discovery through the federal court process then ongoing but
when that Court ruled that it could not give relief because the state court had never
addressed the discovery issue on the merits, Tedford returned to the Pennsylvania
state courts.

But the result of that effort was a ruling by the PASC that the

ineffectiveness of Tedford’s prior lawyers in not bringing the claim back to
Pennsylvania state court within 60 days of the day they received the March 4, 2011,
letter is an unchallengeable act that forever forecloses Tedford from obtaining the

25

discovery that could prove that his cries of innocence for over three decades are an
abiding statement of the truth.
The arbitrariness of that ruling is underscored by the fact that to rule this
way the PASC had to overlook its own precedents to the contrary.
On occasions spurred perhaps by the clear inequities of the situation, the
PASC has found an avenue around the statute of limitations it otherwise enshrines
as jurisdictional. This has been achieved by focusing on §9545(b)(1)(ii) and holding
that the ineffectiveness was a “new fact” that allowed the petitioner relief from the
jurisdictional bar. This consideration has been given on three distinct occasions but
was arbitrarily and capriciously not applied to Tedford’s case although his situation
is indistinguishable from the others.
In Commonwealth v. Bennett, Supra., PCRA counsel failed to file a brief and
the case was ultimately dismissed. When Bennett brought his subsequent PCRA,
he was told that it was untimely since it was filed more than a year after his
conviction was final.

The Supreme Court, however, found that the failure to

preserve the basic avenue of appeal constituted a complete denial of counsel that
mandated a presumption of prejudice requiring that his petition be allowed to
proceed. In so ruling, the Court relied upon Roe v. Flores-Ortega, 528 U.S. 470
(2000).
In Commonwealth v. Rosado, 150 A.3d 425 (Pa. 2016), PCRA counsel
somehow managed to raise on appeal only the issues which had not properly been
preserved for appellate review and abandoned all preserved issues otherwise ripe

26

for merits consideration. The Court found again that this constituted ineffective
assistance of counsel per se and that counsel’s actions effectively denied the
petitioner the capacity to appeal. Id. at 433. Errors that “foreclose merits review”
are per se errors that permit a defendant’s claim to proceed.
And in Commonwealth v. Peterson, 192 A.3d 1123 (Pa. 2018), counsel filed
the PCRA petition one day late, a fact only discovered sua sponte by the Superior
Court when the matter reached appeal. The PASC held that “counsel’s untimely
filing . . . constituted ineffectiveness per se, as it completely deprives [appellant] of
any consideration of his collateral claims under the PCRA.” Id. at 1130. Once again,
since counsel deprived the defendant of a chance for review, the PASC permitted
the circumvention of the otherwise rigid jurisdictional bar.
But when Tedford’s prior counsel’s inaction also foreclosed his chance to
obtain a merits review of a discovery request made viable by the revelation that the
Commonwealth had misled the Courts for decades about the discovery that was
available, the Pennsylvania Supreme Court conveniently and arbitrarily ignored
this precedent in violation of basic Due Process norms.
The PASC began by intoning its oft stated maxim that claims of
ineffectiveness assistance of counsel “do not overcome the statutory time limitations
of the PCRA statute” and that Courts have no power to carve out exceptions.
Commonwealth v. Tedford, 228 A3d 891, 905 (Pa. 2020). This, of course, ignored
the exceptions carved out by Bennett, Peterson, and Rosado. The PASC then
attempted to cast Peterson as a unique case involving ineffectiveness assistance of

27

counsel per se, allegedly unlike Tedford’s.

Id. at 906.

The problem with that

reasoning, of course, is that the same sort of ineffectiveness identified in Peterson
also crippled Tedford’s opportunity to be heard on the critical matter of discovery.
Because his counsel failed to return to the Pennsylvania courts within 60 days of
the March 4, 2011 letter, Tedford has been deprived of the ability to receive a
merit’s determination of this critical claim. That failure deprived him of appellate
review of this issue as completely as the failures of the attorneys in Bennett,
Peterson, and Rosado deprived those petitioners of their opportunity to have a
merits consideration.
The attempt by the PASC to circumvent this gross inconsistency by saying
that somehow Tedford was not deprived of his collateral review because the lower
court did consider his challenge to the hair/fiber analysis set forth in his second
PCRA, Id. 906, borders on being specious. The issue of the hair/fiber analysis was
an issue separately arising and timely presented by Tedford after the FBI admitted
that the hair/fiber analysis it had engaged in, and which it taught to state court
analysts like the one who testified in Tedford’s case, was essentially junk science.
Had that admission not been made, the hair/fiber claim would never have been
made and the lower court would have dismissed Tedford’s claim without any merits
consideration, putting him in exactly the same position as others whose prior
counsel’s ineffectiveness was not set as a bar to the further litigation of the claims.
The PASC dismissed Tedford’s “as applied” challenge without ever
considering it in light of the precedent it established which would have at least paid

28

some lip service to the need to have the proceedings conform to federal Due Process
standards.

In doing so, the PASC violated the most fundamental norm of Due

Process in arbitrarily failing to follow its own precedent. The admonition of Justice
Frankfurter in United States v. Bethlehem Steel, 315 U.S. 289, 326 (1942) is
apropos: “Is there any principle which is more familiar or more firmly embedded in
the history of Angler American Law than the basic doctrine that the courts will not
permit themselves to be used as instruments of inequity and injustice?”

The

inequity and injustice here has a specific face: Tedford remains on the road to
execution when over half of the 800 documents which could prove his innocence
remain arbitrarily hidden from him with the blessing of Pennsylvania’s highest
court.
The egregious violation of Due Process here is not the only time in which the
PASC’s arbitrary and draconian interpretation of its PCRA statute has spawned
fundamentally unjust results. Tedford has already described the circumstances in
Commonwealth v. Laird in which the Superior Court itself recognized a situation in
which a defendant’s right to effective assistance of counsel in a PCRA setting was
completely denied by operation of the PASC’s rulings.

In Commonwealth v.

Callahan, 108 A.3d 118 (Pa. Super. 2014), the petitioner’s first PCRA application
resulted in a split decision, winning a reinstatement of his right to direct appeal but
losing other substantive issues regarding his prior counsel’s ineffectiveness.
Callahan elected to persist in his appeal of the other issues denied by the PCRA
trial court instead of abandoning the continuance of his PCRA appeal and pursuing

29

his direct appeal. After his PCRA appeal was concluded, he then filed a second
PCRA to effect his direct appeal which was dismissed as untimely because, by not
undertaking his direct appeal upon the grant of relief, the Court found that one year
elapsed since his conviction became final. Since there are no exceptions to the oneyear filing requirement, and since there is no equitable tolling under the PCRA
statute, whatever merit might lie in the issues he could have raised on direct
appeal, were now lost forever. Id. at 122.
In Commonwealth v. Lark, 746 A.2d 585 (Pa. 2000), the PASC reiterated that
a defendant cannot file a second PCRA when the first is still pending on appeal,
presenting a defendant with the Hobson’s choice of either abandoning the first
PCRA or foregoing the argument that his counsel was ineffective since, the
Pennsylvania appellate process takes far longer than the one year window will
allow.
In Commonwealth v. Baroni, 827 A.2d 419 (Pa. 2003), the PASC held that
even if a defendant asserts that a structural error (not properly instructing the jury
to find him guilty beyond a reasonable doubt) occurred, a violation of the PCRA
statute of limitations means that such an error is lost to the annals of history
forever.
In 2019, the Supreme Court used the PCRA time limits in a manner almost
as egregious as it has done in Tedford’s case. In Commonwealth v. Natividad, 201
A.3d 11 (Pa. 2019), the defendant was convicted of a homicide that occurred at a gas
station. He had professed his innocence. In his collateral attack in federal habeas

30

proceedings, he was granted discovery. In the hundreds of pages of never-before
revealed materials he received on March 6, 2012 was included a cryptic police note
that alluded to the possibility that someone may have witnessed the shooting. The
note mis-identified the name of the alleged witness and gave very little details of
what he supposedly saw. His lawyer immediately tried to identify and locate the
individual and, through a private investigator, finally tracked the man down.
Natividad obtained an affidavit from him which was filed with the court on August
9, 2012. In that affidavit, the witness stated that he was a security guard in the
area who was in the gas station and witnessed the shooting. While the witness was
not a friend of Natividad, he knew Natividad and stated categorically Natividad
was not the shooter. This overwhelming exculpatory evidence, however, will never
be heard by a jury because the PASC calculated that August 9th is more than 60
days from March 6th. Natividad remains on death row.
The stinging criticisms Tedford had used in this pleading are wholly justified.
Indeed, a Justice of the PASC, the Honorable Max Baer, has used words similarly
acerbic regarding the unconscionable way in which his Court has given a false
promise to individuals that a truly fair post-conviction collateral process exists in
the Commonwealth which comports with the requirement of the Fifth and
Fourteenth Amendments. The dissent of Justice Max Baer was issued in a case in
which a PCRA was dismissed as untimely in circumstance almost as bizarre and
inexplicable as the one involving Tedford.

31

In Commonwealth v. Brown, 943 A.2d 264 (Pa. 2008), the defendant was
convicted in a drug case. At his sentencing, his lawyer made an oral post-sentence
motion which the court felt was of sufficient substance to require the matter be
taken under advisement. While counsel had pledged that he would follow up the
oral motion with a written one, he failed to do so. Eleven months later the trial
court issued an order denying the oral post-sentence motion and the defendant then
filed notice of appeal. Id. at 265. The Commonwealth moved to quash the appeal
because under Pennsylvania’s rules only a written post-sentence motion will stop
the 30-day time period for filing a notice of appeal from running. After mulling the
matter over, the Superior Court agreed with the Commonwealth and dismissed the
appeal on its face.
Naturally, the defendant immediately filed a PCRA claiming that his
attorney was ineffective for failing to preserve his appellate rights. But once again
the cold hard mathematics of the Pennsylvania PCRA statute reared its ugly head
and was enforced despite the obvious inequities of the situation. The one year limit
for the filing of a PCRA began 30 days after the sentence, the PASC held, and with
the trial court’s lengthy consideration of the motion and the Superior Court’s
determination to quash the appeal, that one year had expired by the time Brown
filed his PCRA.

After all, the PASC noted, “there is no generalized equitable

exception to the jurisdiction of one-year bar.” Id. at 267. While acknowledging that
an as-applied Constitutional challenge was possible to the application of the statute,

32

Id. at note 4, Brown had made no such argument and the dismissal of his PCRA
was affirmed.
Justice Baer dissented. He wrote that ever since the Supreme Court had
ruled that the time limits on the PCRA statute are jurisdictional the Court “has felt
compelled to tolerate Constitutional violation upon Constitutional violation,
sacrificing fundamental rights at the altar of finality.” Id. at 272. This is a grave
mistake, he stated since “the United States and Pennsylvania Constitutions,
however, do not countenance finality at the expense of Constitutional rights; rather,
as a matter of due process, they promise convicted defendants one substantive
appeal of their convictions and also the effectiveness of counsel throughout that
appeal.” Id.

He chastised the majority for using the ineffectiveness of Brown’s

counsel to justify the deprivation of Brown’s right to appeal and embraced the
Evitts Court holding that ineffective assistance of counsel can never be the basis for
a defendant to lose the substantive opportunity to pursue an appeal. Id. His final
condemnation was that the PASC’s unduly restrictive reading of the Pennsylvania
PCRA statute “has painted us into a corner.” Id. at 273.
But the Pennsylvania Supreme Court, painted as it may be into a corner, will
not face execution. Donald Tedford will unless the unconstitutional deprivation of
his basic due process rights that has occurred here is not vindicated by this Court.
Reduced to its essence, this case about the false promise of justice made by
the Courts of Pennsylvania that Tedford would receive a fair trial and the
opportunity to properly litigate his case on appeal and on collateral review. The

33

decision of the PASC here ratifies the action of Commonwealth agents who mislead
the court for 25 years into believing that no other documents of a possible
discoverable nature existed when over 400 pages of the discovery never been seen
by the defense lies in a PSP evidence vault. It not only excuses the ineffectiveness
of Tedford’s prior attorneys, but it perversely uses that ineffectiveness to justify
shutting him out of court when he sought to overturn prior discovery denials which
were primarily predicated on those false representations. The PASC decision is
truly the worst kind of Due Process violation imaginable since it reeks of the bitter
hypocrisy of claiming that the PCRA process comported with Due Process
safeguards and protected Tedford’s right to the effective assistance of counsel when,
in its application here, it systematically used the denial of the latter to justify the
obliteration of the former.
Tedford does not come to this Court begging for his life. He does not invoke
esoteric doctrines of far flung, novel legal theories. He asks for nothing more than
that which is the most rudimentary principle of Due Process. He asks to be given
the chance to prove that what he has cried out from his jail cell for all of these years
is true: that he did not kill this woman. In a vault in the State Police Barracks
somewhere in Pennsylvania are hundreds of pages of documents Tedford should
have had before trial even commenced.

Through the PASC’s callous and

unconstitutional disregard of the fundamental principles of Due Process of law,
those documents remain hidden not just from Tedford but from a public which has
the right to know on the day of Tedford’s execution that there is no meaningful

34

doubt but that he was the killer of Jeanine Revak. Can any society which hopes to
call itself just execute this man without permitting a public examination of what
has been unlawfully hidden for all of these years? Will Pennsylvania Court System
be permitted to black out the window into the truth by its capricious administration
of a process which, were It acting according to Constitutional norms, would give the
defendant a fair opportunity to demonstrate his innocence but which, in the manner
in which it has been applied in this case, strangles that truth in the womb?

35

CONCLUSION
The petition for a writ of certiorari be granted.

ADAM B. COGAN
Counsel of Record
218 West Main Street
Suite A
Ligonier, PA 15658
adamcogan@aol.com
(724) 995-8579
BRUCE A. ANTKOWIAK
Saint Vincent College
300 Fraser Purchase Road
Latrobe, PA 15650
September 16, 2020

36

